                                                VETERANS EMPLOYMENT AND
                                                TRAINING SERVICE



Office of Inspector General—Office of Audit 





                                                KANSAS’ CONTROLS OVER JOBS FOR
                                                VETERAN STATE GRANT CONTRACT
                                                REPORTING AND MONITORING NEED TO BE
                                                STRENGTHENED
                                                This audit was performed by WithumSmith+Brown PC, CPAs, under
                                                contract to the Office of Inspector General, and by acceptance, it
                                                becomes a report of the Office of Inspector General.



                                                                ____________________________
                                                               Assistant Inspector General for Audit




                                                                      Date Issued:        March 31, 2011
                                                                      Report Number:      04-11-002-02-201
U.S. DEPARTMENT OF LABOR                                 March 2011
OFFICE OF INSPECTOR GENERAL
                                                         KANSAS’ CONTROLS OVER JOBS FOR
Office of Audit                                          VETERAN STATE GRANT CONTRACT
                                                         REPORTING AND MONITORING NEED TO BE
                                                         STRENGTHENED
BRIEFLY…
Highlights of Report Number: 04-11-002-02-201, to the    WHAT OIG FOUND
Assistant Secretary of Veterans’ Employment and          The OIG found the Kansas DOC’s lack of effective
Training Service.                                        management controls and appropriate supervisory
                                                         oversight undermined its ability to ensure expenditures
WHY READ THE REPORT                                      were properly reported, recorded, and supported. As a
                                                         result, Kansas DOC made frequent errors in the
The OIG conducted a performance audit of the Kansas      financial reports; direct and indirect charges exceeded
Jobs for Veterans State Grant (JVSG) totaling            expenditures per the general ledger; indirect costs were
$1,610,000 for the Fiscal Year (FY) ended                overcharged; general ledger expenditures exceeded
September 30, 2008. The JVSG program assists             program obligation authority in the 4th quarter; and
veterans seeking jobs by funding the Disabled            expenditures to the “Other” budget line item could not
Veterans’ Outreach Program (DVOP) Specialists, the       be supported. Consequently, the financial reports were
Local Veterans’ Employment Representatives (LVER),       not complete or in compliance with Federal regulations.
and the Transitioning Assistance Program (TAP)           These deficiencies resulted in $167,065 of questioned
Workshops in the state. DVOP Specialists provide         costs and $124,086 that may not have been put to best
intensive services to meet the employment needs of       use.
disabled and other eligible veterans; LVER’s engage in
outreach efforts to employers and conduct advocacy       We attribute these deficiencies to the lack of Kansas
efforts with hiring executives to increase employment    DOC policies and procedures to ensure proper controls
opportunities for veterans; and TAP workshops assist     were in place for reporting program expenditures,
service members and their spouses make the transition    monitoring obligation authority, retaining supporting
to the civilian workplace.                               documentation, and recording indirect costs.

WHY OIG CONDUCTED THE AUDIT                              WHAT OIG RECOMMENDED
                                                         We made two recommendations to the Assistant
Our audit objectives were to answer the following        Secretary for Veterans’ Employment and Training
questions:                                               Service (VETS). In summary, we recommended VETS
                                                         direct Kansas DOC to develop and implement internal
1. Did errors occur within the Kansas JVSG FY 2008       control policies and procedures to improve program
   financial reports for the DVOP, LVER, and the TAP     management and to ensure that JVSG funds are
   Workshops?                                            properly recorded and reported; and to recover
2. Were the Kansas JVSG’s FY 2008 financial reports      unsupported and questioned grant costs.
   complete and in accordance with Federal
   requirements?                                         In response to our draft report, the Assistant Secretary
                                                         for Veterans’ Employment and Training Service agreed
The audit covered grant documents, financial and         with all recommendations. He stated that VETS will
programmatic reports submitted to DOL Veterans’          require the development of internal control policies and
Employment and Training Service (VETS); data             procedures, report within 60 days, and consider
available from the Kansas Department of Commerce         recovery of the unsupported and questioned grant
(DOC), Kansas Workforce Services; relevant               costs.
legislation; and DOL VETS program letter requirements.
The onsite fieldwork included interviews with State      In response to our draft report, the Chief Financial
employees responsible for program oversight and          Officer of the Kansas DOC partially agreed to our
review of documentation to support our random sample     recommendations. She stated that internal control
of various budget categories.                            weaknesses did exist, and certain costs were not
                                                         supported. However, she stated the agency will be able
READ THE FULL REPORT                                     to provide the necessary documentation to support
To view the report, including the scope, methodology,    these costs within the next few weeks.
and full agency response, go to:
http:www.oig.dol.gov/public/reports/oa/2011/04-11-002-
02-201.pdf
                            Prepared by WithumSmith+Brown, PC
    for the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                Kansas Jobs for Veterans State Grant
                                       Report No. 04-11-002-02-201
                                                                    Prepared by WithumSmith+Brown, PC
                                            for the U. S. Department of Labor – Office of Inspector General


Table of Contents 

Independent Auditor’s Report...................................................................................... 1 

Results in Brief .............................................................................................................. 2 

Objective 1 —  Did errors occur within the Kansas JVSG for FY 2008
               financial reports for the DVOP, LVER, and TAP Workshops?.......... 3 

         The Kansas DOC’s lack of effective management controls and appropriate
         supervisory oversight undermined its ability to ensure expenditures were
         properly reported, recorded, and supported. ........................................................ 3 

         Finding 1 — Weak JVSG Management Controls Resulted in Errors in
                     Financial Reporting and Recording .................................................. 3 

Objective 2 — Were the Kansas JVSG FY 2008 financial reports complete
              and in accordance with Federal requirements? ................................ 5 

         The Kansas DOC’s lack of internal control policies and procedures
         hampered the grantee’s ability to provide accurate financial reports in
         accordance with Federal requirements................................................................. 5 

         Finding 2 — Internal Control Deficiencies Resulted in Incomplete Financial
                     Reporting.......................................................................................... 6 

Recommendations ........................................................................................................ 7 

Exhibits

Exhibit 1 Comparison of General Ledger to Electronic Data Report by Quarter............ 11 

Appendices

Appendix A Background................................................................................................ 15 
Appendix B Objectives, Scope, Methodology, and Criteria ........................................... 17 
Appendix C Acronyms and Abbreviations ..................................................................... 21 
Appendix D VETS and Kansas DOC’s Responses to Draft Report............................... 23 




                                                                                  Kansas Jobs for Veterans State Grant
                                                                                         Report No. 04-11-002-02-201
                            Prepared by WithumSmith+Brown, PC
    for the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                Kansas Jobs for Veterans State Grant
                                       Report No. 04-11-002-02-201
                                                                                                           Prepared by WithumSmith+Brown, PC
                                                                                   for the U. S. Department of Labor – Office of Inspector General
  WithumSmith+Brown
  A Professional Corporation
  Certified Public Accountants and Consultants


  8403 Colesville Road, Suite 340
  Silver Spring, Maryland 20910 USA
  301.585.7990 . fax 301.585.7975                                                                 Independent Auditor’s Report
  www.withum.com
  Additional Offices in New Jersey
  New York and Pennsylvania                                    March 31, 2011
                                                               Independent Audit’s Report
                                                               Mr. Raymond M. Jefferson
                                                               Assistant Secretary
                                                                 of Veterans’ Employment and Training Service
                                                               U.S. Department of Labor
                                                               200 Constitution Avenue, NW
                                                               Washington, D.C. 20210

                                                               The Department of Labor Veterans’ Employment and Training
                                                               Service (DOL VETS) offers assistance to veterans seeking jobs
                                                               through the Jobs for Veterans State Grants (JVSG) Program. The
                                                               purpose of this grant is to fund Disabled Veterans’ Outreach
                                                               Program (DVOP) Specialists, Local Veterans’ Employment
                                                               Representatives (LVER), and Transitioning Assistance Program
                                                               (TAP) Workshops. WithumSmith+Brown, under contract with the
                                                               DOL OIG, audited the Kansas JVSG totaling $1,610,000 for the
                                                               fiscal year (FY) ended September 30, 2008. This period represents
                                                               the annual modification to the multi-year grant period ended
                                                               September 30, 2009.

                                                               Our audit objectives were to determine if (1) errors occurred within
                                                               the Kansas JVSG’s FY 2008 financial reports for the DVOP, LVER,
                                                               and the TAP Workshops, and (2) the Kansas JVSG’s FY 2008
                                                               financial reports were complete and in accordance with Federal
                                                               requirements.

                                                               The audit included a review of grant documents, financial and
                                                               programmatic reports submitted to DOL VETS, and data available
                                                               from the Kansas Department of Commerce (DOC), Kansas
                                                               Workforce Services, as well as external sources. We also reviewed
                                                               relevant legislation and DOL VETS program letter requirements for
                                                               this grant program. The audit included onsite fieldwork at the
                                                               Kansas DOC. The onsite fieldwork included a review of
                                                               documentation to support our random sample of various budget
                                                               categories. The onsite fieldwork also included interviews with
                                                               various State employees responsible for oversight of the JVSG
                                                               grant program.


A member of HLB International. A world-wide organization of accounting firms and business advisers.


                                                                                                                 Kansas Jobs for Veterans State Grant
                                                                    1                                                   Report No. 04-11-002-02-201
                                                       Prepared by WithumSmith+Brown, PC
                               for the U. S. Department of Labor – Office of Inspector General


WithumSmith+Brown (WS+B) conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. Our objectives, scope, methodology, and
criteria are detailed in Appendix B.

RESULTS IN BRIEF
Results in Brief
The Kansas DOC’s lack of effective management controls and appropriate supervisory
oversight undermined its ability to ensure expenditures were properly reported,
recorded, and supported. As a result, Kansas DOC made frequent errors in the financial
reports, general ledger expenditures exceeded program obligation authority, and
“Other” budget line item could not be supported. In addition, direct and indirect charges
exceeded expenditures per the general ledger (GL) and indirect costs were
overcharged by $14,969. We attribute these deficiencies to the lack of Kansas DOC
policies and procedures to ensure proper controls were in place for reporting program
expenditures, monitoring obligation authority, retaining supporting documentation, and
recording indirect costs. These deficiencies resulted in $167,065 of questioned costs
and $124,086 that may not have been put to best use.

The Kansas DOC’s lack of internal control policies and procedures hampered the
grantees ability to provide accurate financial reports in accordance with Federal
requirements. Accordingly, financial reports were not complete or in compliance with
Federal regulations. For example, indirect costs were improperly calculated and
reported, revisions were made to the financial reports without a corresponding
correction to the GL, and the financial report program totals did not agree to the GL.

In summary, we recommend the Assistant Secretary for Veterans’ Employment and
Training Service (1) recover the questioned unsupported other costs of $152,096 and
indirect costs of $14,969; and (2) direct the Kansas DOC to develop and implement
internal control policies and procedures to improve program management and to ensure
that JVSG funds are properly recorded and reported.

VETS AND KANSAS DOC RESPONSES

In response to our draft report, the Assistant Secretary for Veterans’ Employment and
Training Service (VETS) agreed that the grantee exercised a lack of effective
management controls and appropriate supervisory oversight. VETS agreed with all
recommendations and stated that they will require the Kansas DOC to develop internal
control policies and procedures and report within 60 days. VETS will consider recovery
of the unsupported and questioned grant costs.



                                                           Kansas Jobs for Veterans State Grant
                                          2                       Report No. 04-11-002-02-201
                                                                  Prepared by WithumSmith+Brown, PC
                                          for the U. S. Department of Labor – Office of Inspector General


In response to our draft report, the Chief Financial Officer (CFO) of the Kansas DOC
partially agreed to our recommendations. The CFO stated that internal control
weaknesses did exist, but the Kansas DOC has since implemented substantive and
systematic reforms designed to improve its processes. The Kansas DOC CFO also
agreed with our finding that certain costs were unsupported; however, she stated the
agency will be able to provide the required documentation within the next few weeks.

The Assistant Secretary’s and Chief Financial Officers entire responses are contained in
Appendix D.

The responses did not change the audit’s Findings and Recommendations. Continuous
communication was maintained throughout the audit concerning the issues
encountered, providing ample time for the Kansas DOC to provide documentation
supporting the questioned costs.

RESULTS AND FINDINGS

Objective 1 — Did errors occur within the Kansas JVSG for FY 2008 financial
              reports for the DVOP, LVER, and TAP Workshops?

         The Kansas DOC’s lack of effective management controls and appropriate
         supervisory oversight undermined its ability to ensure expenditures were
         properly reported, recorded, and supported.

Per 29 Code of Federal Regulation (CFR) §97.20, states must maintain effective control
and accountability for grant assets (i.e. cash). Additionally, procedures must be
established to enable states to prepare complete and accurate reports to DOL VETS.

Finding 1 — Weak JVSG Management Controls Resulted in Errors in Financial
            Reporting and Recording
Finding 1 — Weak JVSG Management Controls Resulted in Errors in Financial Reporting and Recording
Lack of effective management controls and appropriate supervisory review resulted in
unsupported cost for about $276,182 of the “Other” budget category. Specifically, we
question $152,096 related to deficiencies in 135 sampled transactions and calculate
$124,086 in related funds that may not have been put to best use. In a separate issue,
we question $14,969 of costs related to an overcharge of indirect costs.

Kansas DOC did not establish policies and procedures to enable management to
ensure the preparation of complete and accurate reports. In addition to the questioned
costs, we found the TAP exceeded the program obligation authority, and the 5th quarter
grant reports did not agree to the GL due to the lack of effective management controls
and appropriate supervisory oversight of the grant.

Based on our testing of a statistical sample of transactions, we estimate with a 95
percent confidence level that unsupported costs were between $246,078 and $300,656.

                                                                              Kansas Jobs for Veterans State Grant
                                                        3                            Report No. 04-11-002-02-201
                                                       Prepared by WithumSmith+Brown, PC
                               for the U. S. Department of Labor – Office of Inspector General


The unbiased point estimate is $273,367. In addition, we identified $2,815 of cost
related to the TAP program that was also unsupported in the account balance.
Therefore the total unsupported cost amounted to about $276,182. Our audit included a
random selection of 158 transactions totaling $183,069 from the “Other” budget
category totaling $325,937. The category includes charges for postage, telephone,
printing, advertising, rent, equipment rental, car repair, honorariums, data processing,
professional fees, electricity, gas, water, sewage, computer system support, and
building improvements.

Our review of the transactions found that approximately 135 of the 158 transactions (or
85 percent) could not be properly supported. Specifically, $152,096 of the $183,069 (or
83 percent) was charged using an allocation methodology based on estimated
employee hours worked by program. However, the auditee was unable to provide
support for the allocation percentages applied during our audit period; therefore, we
were unable to substantiate the amounts charged to the “Other” line item for the DVOP,
LVER, and TAP. As a result, we question $152,096 charged to the grant program.
In addition, based on the unsupported cost of $276,182 we calculate about $124,086
($276,182 minus the $152,096 questioned cost) of the funds reported as “Other” may
not have been put to best use.

Indirect costs were recorded biweekly and were based on the payroll. At the end of a
payroll cycle, when all payroll transactions had been recorded in the GL, the accountant
responsible for recording indirect costs downloaded the payroll information from the
Statewide Human Resource and Payroll Project (SHARP) system. Per the indirect cost
rate negotiation agreement, the direct cost base was direct salary and fringe benefits.
The accountant applied the applicable rate against the applicable salaries and fringes
by fund and created a Transfer of Funds form to document the accounting entry. The
accountant then posted the entry to record the indirect cost funds. The accountant
responsible for recording the indirect cost during our grant period had since left the
agency, and there were no written policies and procedures documenting this process.

We noted that the provisional indirect cost rate applicable to the Federal fiscal grant
year was 16.89%. Documentation to support the final negotiated rate could not be
provided. Our review of the indirect cost rate by program and quarter noted that rates
recorded in the GL varied from 5% to 456%.

Because documentation to support the final negotiated rate could not be provided, using
the provisional rate of 16.89%, we recalculated the indirect cost applied to the salary
and fringe benefit base of $1,039,896. The calculation resulted in indirect costs of
$175,638, which was $14,969 less than the $190,607 recorded in the GL (see Exhibit 1,
Revised Table).

In addition, requested revisions made to the reports based on questions and concerns
raised by DOL VETS resulted in amounts being changed in the reports without a
corresponding correction to the GL. The lack of confidence in the integrity of the

                                                           Kansas Jobs for Veterans State Grant
                                          4                       Report No. 04-11-002-02-201
                                                                Prepared by WithumSmith+Brown, PC
                                        for the U. S. Department of Labor – Office of Inspector General


information reported subsequently resulted in DOL VETS requesting an OIG audit of the
grant funds.

Every quarter, the DOL VETS provided a Notification of Obligation Authority (NOA) for
the DVOP, LVER, and TAP to the State. The notification represented the total
authorized authority available for obligation, and obligations cannot exceed the
cumulative total. Kansas DOC’s Fiscal Department did not have written policies and
procedures in place to ensure cumulative grant obligations did not exceed the NOA.

WS+B compared the total authority per the NOA by program and quarter to the total
expenditures per the GL by program and quarter. We found that the total expenditures
for the TAP program exceeded the authority in the 4th quarter by approximately
$29,500.

We found that the total costs reported on the FY 2008 5th quarter and the FY 2009
1st quarter reports agreed to the total costs recorded in the GL. However, we found that
the 5th quarter GL per the spreadsheet initially provided for audit did not agree to the
“revised” 5th quarter financial reports. 1 As a result, costs per the financial reports
exceeded the GL by approximately $40,000 (see Exhibit 1, Original Table).

Kansas DOC’s Fiscal Department allocated direct “Other” costs based on hours worked
on particular projects in an effort to equitably charge certain expenditures to the proper
funding stream. The allocation percentages were adjusted twice each year. To calculate
the percentages, each department submitted the estimated hours employees worked by
program. Once the estimates were received, they were input into a spreadsheet by
department, and a pro rata percentage of costs for each program was calculated.
Kansas DOC’s Fiscal Department did not have written policies and procedures
documenting the allocation methodology nor could the State provide support for the
allocation calculations applied during our audit period.

Objective 2 — Were the Kansas JVSG FY 2008 financial reports complete and in
             accordance with Federal requirements?

         The Kansas DOC’s lack of internal control policies and procedures hampered the
         grantee’s ability to provide accurate financial reports in accordance with Federal
         requirements.

Per 20 CFR §658.601, each State Administrator should, to the maximum extent
feasible, ensure the accuracy of the data. Furthermore, the State agency must establish
and maintain a data validation system that accurately reflects the accomplished
activities and provides actual expenditure data, in accordance with 29 CFR §97.20.



1
 Kansas DOC filed two versions of 5th quarter financial reports. The spreadsheet we were provided for audit tied to
the first set of financial reports submitted.

                                                                           Kansas Jobs for Veterans State Grant
                                                      5                           Report No. 04-11-002-02-201
                                                                                Prepared by WithumSmith+Brown, PC
                                                        for the U. S. Department of Labor – Office of Inspector General


            Finding 2 — Internal Control Deficiencies Resulted in Incomplete Financial
                        Reporting
Finding 2 — Internal Control Deficiencies Resulted in Incomplete Financial Reporting
            The lack of proper supervisory review and policies and procedures defining the Kansas
            DOC’s reporting process resulted in errors in the financial reports. We found that
            internal control deficiencies resulted in reporting mistakes, which caused a high error
            rate in the accuracy of the reported data. The supervisory review process both in the
            Fiscal Department and the Workforce Development Office were not adequate to ensure
            errors were identified and corrected before the reports were submitted. Specifically, our
            audit of the FY 2008 financial reports noted that the Federal Financial Report (FFR) and
            Expenditure Detail Reports (EDR) were not complete or in accordance with Federal
            requirements. As a result of the significant internal control deficiencies, the state’s ability
            to comply with Federal regulations was impaired.

            Because DOL VETS could not determine the accuracy of the reports, they were unable
            to certify that the funds were spent in accordance with Federal guidelines. For example,
            improper indirect costs were charged to the grant throughout the year. The TAP
            incurred $48,052 of indirect costs even though the total salary and fringe benefit costs
            for the program were only $40,516 (see Table 1), resulting in an effective indirect cost
            rate of 118.60% 2 . It was not until DOL VETS identified the error in the quarterly financial
            report that the 5th quarter report was corrected (see Exhibit 1, Revised Table).

            Furthermore, reported charges for the TAP, DVOP, and LVER totaled $55,000,
            $894,000, and $661,000, respectively. Our audit of the expenditures per the GL found
            that the recorded charges for the TAP, DVOP, and LVER were $94,848, $814,436, and
            $660,718, respectively. As a result, Kansas DOC had under reported TAP by $39,848,
            over reported DVOP by $79,564, and over reported LVER $282 (see Table 1). It was
            not until DOL VETS identified the error in the quarterly financial report that the 5th
            quarter report was corrected (see Exhibit 1, Revised Table).




            2
                The provisional indirect cost rate for the period was 16.89%.

                                                                                    Kansas Jobs for Veterans State Grant
                                                                      6                    Report No. 04-11-002-02-201
                                                      Prepared by WithumSmith+Brown, PC
                              for the U. S. Department of Labor – Office of Inspector General




Table No. 1: Comparison of Original GL to EDR Report by Program
Budget Line Item                  TAP          DVOP           LVER                   Total
Per GL:
Salaries                      $     35,569 $     435,224 $     338,756           $     809,549
Fringe                               4,947       120,346        75,726                 201,019
Total Salary and Fringe             40,516       555,570       414,482               1,010,568
Travel                               2,650        17,837        17,633                  38,120
Supplies                               443         7,602         7,611                  15,656
Other                                3,187       160,914       161,836                 325,937
Total Direct Costs                  46,796       741,923       601,562               1,390,281
Indirect Costs                      48,052        72,513        59,156                 179,721
Grant Total                         94,848       814,436       660,718               1,570,002

Per EDR:
Direct Costs                        47,138         754,808          617,446          1,419,392
Indirect Costs                       7,862         139,192           43,554            190,608
Total Costs Reported to DOL         55,000         894,000          661,000          1,610,000

(Over)/Under Reported               39,848         (79,564)            (282)          (39,998)

RECOMMENDATIONS

We recommend the Assistant Secretary for Veterans’ Employment and Training Service
to:
1. Recover the questioned unsupported other costs of $152,096 and indirect costs of
   $14,969.

2. Direct Kansas DOC to develop and implement internal control policies and
   procedures to improve program management and to ensure that JVSG funds are
   properly recorded and reported.


We appreciate the cooperation and courtesies that Kansas DOC and DOL VETS
personnel extended to WithumSmith+Brown during this audit.




                                                          Kansas Jobs for Veterans State Grant
                                         7                       Report No. 04-11-002-02-201
                            Prepared by WithumSmith+Brown, PC
    for the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                Kansas Jobs for Veterans State Grant
               8                       Report No. 04-11-002-02-201
                                     Prepared by WithumSmith+Brown, PC
             for the U. S. Department of Labor – Office of Inspector General




Exhibits 





                                         Kansas Jobs for Veterans State Grant
                        9                       Report No. 04-11-002-02-201
                            Prepared by WithumSmith+Brown, PC
    for the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                Kansas Jobs for Veterans State Grant
               10                      Report No. 04-11-002-02-201
                                                                    Prepared by WithumSmith+Brown, PC
                                            for the U. S. Department of Labor – Office of Inspector General

                                                                                                       Exhibit 1
Comparison of General Ledger to Electronic Data Report by Quarter
Exhibit 1 Comparison of General Ledger to Electronic Data Report by Quarter
Original Table:
Budget Line       5th FY07                 1st          2nd        3rd       4th     5th FY08    Total
Salaries         $ (195,644) $           222,381      $ 166,217 $ 197,710 $ 181,543 $ 237,343 $ 809,549
Fringe                      -             55,039         48,333    49,134    48,513           -   201,019
Subtotal           (195,644)             277,420        214,550   246,844   230,056     237,343 1,010,568
Travel                      -             11,148         13,688      7,476     5,808          -    38,120
Supplies                    -              1,896          4,358      4,244     5,158          -    15,656
Other                       -            114,169         90,368    71,741    49,659           -   325,937
Total Direct       (195,644)             404,633        322,964   330,305   290,681     237,343 1,390,281
Indirect Costs       (28,112)             44,360         32,078    48,399    64,308      18,687   179,720
Grand Total        (223,756)             448,993        355,042   378,704   354,989     256,030 1,570,001
EDR Report Total   (223,756)             448,994        355,042   378,486   354,989     296,245 1,610,000
Difference                  -                  1              -      (218)         -     40,215    39,998

Revised Table:
Budget Line       5th FY07                 1st          2nd        3rd       4th     5th FY08    Total
Salaries         $ (195,644) $           222,381      $ 166,217 $ 197,710 $ 181,543 $ 266,670 $ 838,877
Fringe                      -             55,039         48,333    49,134    48,513           -   201,019
Subtotal           (195,644)             277,420        214,550   246,844   230,056     266,670 1,039,896
Travel                      -             11,148         13,688      7,476     5,808          -    38,120
Supplies                    -              1,896          4,358      4,244     5,158          -    15,656
Other                       -            114,169         90,368    71,741    49,659           -   325,937
Total Direct       (195,644)             404,633        322,964   330,305   290,681     266,670 1,419,609
Indirect Costs       (28,112)             44,360         32,078    48,399    64,308      29,575   190,607
Grand Total        (223,756)             448,993        355,042   378,704   354,989     296,244 1,610,216
EDR Report Total   (223,756)             448,994        355,042   378,486   354,989     296,244 1,610,000
Difference                  -                  1              -      (218)         -          -     (217)




                                                                              Kansas Jobs for Veterans State Grant
                                                           11                        Report No. 04-11-002-02-201
                            Prepared by WithumSmith+Brown, PC
    for the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                Kansas Jobs for Veterans State Grant
               12                      Report No. 04-11-002-02-201
                                       Prepared by WithumSmith+Brown, PC
               for the U. S. Department of Labor – Office of Inspector General




Appendices 





                                           Kansas Jobs for Veterans State Grant
                          13                      Report No. 04-11-002-02-201
                                Prepared by WithumSmith+Brown, PC
        for the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                    Kansas Jobs for Veterans State Grant
                   14                      Report No. 04-11-002-02-201
                                                       Prepared by WithumSmith+Brown, PC
                               for the U. S. Department of Labor – Office of Inspector General

                                                                                Appendix A
Background
Appendix A Background
The DOL VETS offers assistance to veterans seeking jobs through the JVSG program.
In accordance with 38 USC Section 4102A(b)(5) and 4102A(c), the Assistant Secretary
for Veterans’ Employment and Training Service makes grant funds available for use in
each State to support the JVSG. These grants fund state employees that provide
outreach and assistance to veterans seeking employment under the following programs:

   •   DVOP Specialists,
   •   LVER, and
   •   TAP Workshops.

DVOP specialists provide intensive services to meet the employment needs of disabled
veterans and other eligible veterans, with the maximum emphasis directed toward
serving those who are economically or educationally disadvantaged, including homeless
veterans, and veterans with barriers to employment. DVOP specialists are actively
involved in outreach efforts to increase program participation, which may include but
should not be limited to: outplacement in Department of Veterans' Affairs (DVA)
Vocational Rehabilitation and Employment Program offices; DVA Medical Centers;
routine site visits to Veterans' Service Organization meetings; Native American Trust
Territories; Military installations; and other areas of known concentrations of veterans or
transitioning service members.

LVER’s conduct outreach to employers and engage in advocacy efforts with hiring
executives to increase employment opportunities for veterans, encourage the hiring of
disabled veterans, and generally assist veterans to gain and retain employment. LVER
staff conducts seminars for employers and job search workshops for veterans seeking
employment, and facilitate priority of service in regard to employment, training, and
placement services furnished to veterans by all staff of the employment service delivery
system.

To meet the specific needs of veterans, particularly veterans with barriers to
employment, DVOP and LVER staff are thoroughly familiar with the full range of job
development services and training programs available at the State Workforce Agency
One-Stop Career Centers and Department of Veterans' Affairs Vocational Rehabilitation
and Employment Program locations.

TAP employment workshops, mandated by 10 USC Section 1144, are typically 2 to 2 ½
days and focus on job-search preparation and assistance. The workshops were
established to assist service members and their spouses make the transition to the
civilian workplace.

To monitor the progress in each of these programs, DOL VETS reviews the quarterly
and fiscal FFR and EDR, program activity (Manager’s Report on Services to Veterans),
and outcome (Program Activity and Outcome Report and Technical Performance

                                                           Kansas Jobs for Veterans State Grant
                                          15                      Report No. 04-11-002-02-201
                                                       Prepared by WithumSmith+Brown, PC
                               for the U. S. Department of Labor – Office of Inspector General

Narrative) reports from the grantee. The quarterly reporting for the JVSG grant consists
of five quarters. Per the Veterans’ Program Letters (VPL) 02-08 and 07-05, quarterly
reports are required for each of the four Federal fiscal quarters. In addition, states are
allowed to submit 5th quarter reports for JVSG funds not obligated by September 30th.
The 5th quarter consists of funds not obligated or expended that can be carried into the
1st quarter of the next fiscal year. DOL VETS encourages states to carry this funding
forward and use it on a first-in first-out (FIFO) basis for staff salaries and expenses.

The State of Kansas, Workforce Services, which runs the daily operation of the JVSG
grant, is under the Kansas DOC. Expenditure documentation is provided to the Fiscal
Department for processing and recording into the State Accounting and Reporting
System (STARS).

To complete the first four quarterly reports, the State Federal Grants Program Manager
requests a download of expenditures from the fiscal group. The expenditures are
analyzed by program and budget line item to identify anomalies. If the data appears
proper, the financial reports are completed. The completed reports are given to the
State VETS Program Coordinator who reviews the reports and provides the
programmatic information. The completed package is provided to the CFO for signature.
The signed reports are forwarded to DOL VETS. Questions or concerns about the
reports by DOL VETS are emailed to the State Program Manager, and report revisions
are made as necessary.

To apply the 5th quarter expenditures, Kansas Workforce Services determines the
remaining funds in each program. The 1st quarter expenditures of the next Federal fiscal
year are downloaded into a spreadsheet. The 1st quarter is split between the two grant
years in this multi-year grant. The unexpended funds for the 5th quarter are reported
separately on 5th quarter reports, and the remaining funds are reported as the 1st
quarter expenditures of the subsequent grant year.




                                                           Kansas Jobs for Veterans State Grant
                                          16                      Report No. 04-11-002-02-201
                                                       Prepared by WithumSmith+Brown, PC
                               for the U. S. Department of Labor – Office of Inspector General

                                                                                Appendix B
Objectives, Scope, Methodology, and Criteria
Appendix B Objectives, Scope, Methodology, and Criteria
Objectives

Our audit objectives were to determine if:

(1)     Errors occurred within the Kansas JVSG for FY 2008 financial reports for the
        DVOP, LVER, and TAP Workshops.

(2)     The Kansas JVSG FY 2008 financial reports were complete and in accordance
        with Federal requirements.

Scope

WithumSmith+Brown, under contract with the DOL OIG, audited the Kansas JVSG
totaling $1,610,000 for the year ended September 30, 2008. This period represents the
annual modification to the multi-year grant period ended September 30, 2009. We
conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives. The audit included onsite fieldwork at the Kansas DOC Office in Topeka,
Kansas.

A performance audit includes an understanding of internal controls considered
significant to the audit objective and testing compliance with significant laws,
regulations, and other requirements. In planning and performing our audit, we
considered internal controls significant to the audit were properly designed and placed
in operation. This included reviewing DOL’s policies and procedures for administering
the JVSG program and reviewing Kansas DOC’s policies and procedures for the JVSG
program. We confirmed our understanding of these controls and procedures through
interviews and documentation review.

In performing the audit, we evaluated internal control used by Kansas DOC for
reasonable assurance that the reporting of JVSG program was administered and
conducted in accordance with Federal and internal requirements. Our consideration of
Kansas DOC’s internal controls for administering and conducting JVSG program would
not necessarily disclose all matters that might be reportable conditions. Because of
inherent limitation in internal controls, misstatements, losses, or noncompliance may
nevertheless occur and may not be detected.

Our audit focused on the Kansas JVSG financial reporting for FY 2008. The audit
included a review of grant documents, financial and programmatic reports submitted to
VETS, Employment and Training Programs (ETP) Division, and data available from the


                                                           Kansas Jobs for Veterans State Grant
                                          17                      Report No. 04-11-002-02-201
                                                       Prepared by WithumSmith+Brown, PC
                               for the U. S. Department of Labor – Office of Inspector General

Kansas DOC, Kansas Workforce Services, as well as external sources. The audit also
included a review of the quarterly financial reports submitted for FY 2008, with
supporting documentation and interviews conducted with various employees at the
Kansas DOC and Workforce Services.

Methodology

To accomplish our audit objectives, we obtained an understanding of the JVSG program
reporting requirements. We conducted interviews with DOL VETS officials from the
Office of Workforce Investment, Office of Policy, Development Research, and the
Office of Regional Management to gain an understanding of the grant award and
monitoring processes. Policies and procedures followed by DOL VETS during the grant
selection process were reviewed.

To gain a better understanding of the reporting process, supporting ledgers and
subsystems, we interviewed the Federal Grants Program Manager and the Chief
Financial Officer. We obtained the quarterly financial reports (FFR and EDR) submitted
for FY 2008 and the GL detail for FY 2008. We performed a data reliability assessment
to ensure we had complete and accurate data. To determine whether the data was
reliable to select our sample, we reconciled the financial reports to each other and to the
GL. We concluded the data to be sufficiently reliable for our purposes.

For further analysis, we randomly sampled 30 of the 88 employee files and related labor
allocation documentation for the payroll periods ending January 26, 2008, and
August 23, 2008. We reviewed the employee files and time records to ensure costs
were allowable and properly supported. These samples were across the three grant
programs included in our audit. Based on the sample, we found a zero percent error
rate and stopped our sampling. We would expect that, had we continued our sample,
we would have found a similar error rate throughout the universe.

We developed a stratified random sampling plan to test the 504 transactions included in
the budget under “Other,” we randomly sampled 158 transactions. We reviewed
documentation supporting the transactions to ensure costs were allowable and properly
supported. We found 135 of the 158 transactions tested were allocated transactions and
were not properly supported. We used variable sampling at a 95 percent confidence
level to estimate the monetary impact of unsupported transactions. The results of our
tests of transactions were projected to the respective universe.

Examples of the audit results and the relevance of the tests to the audits’ objectives are
provided in the body of the report.




                                                           Kansas Jobs for Veterans State Grant
                                          18                      Report No. 04-11-002-02-201
                                                       Prepared by WithumSmith+Brown, PC
                               for the U. S. Department of Labor – Office of Inspector General

Criteria

We used the following criteria to accomplish our audit:

      •    Office of Management and Budget (OMB) Circular A-102 – Grants and
           Cooperative Agreements with State and Local Governments;
      •    2 CFR Part 225 Circular A-87 – Cost Principles for State, Local and
           Indian Tribal Governments; and
      •    JVSG Program Specific Documents, including:
               o Title 38, USC Chapter 41 – Job Counseling, Training, and
                  Placement for Veterans;
               o Grant document;
               o Special Grant Provisions for Jobs for Veterans State Grants,
                  dated February 1, 2006;
               o Veterans’ Program Letter No. 02-08 – Jobs for Veterans State
                  Grant Reporting; and
               o Veterans’ Program Letter No. 05-05 – Direct and Indirect
                  Charges to the Fiscal Year 2005-2009 Jobs for Veterans State
                  Grants.




                                                           Kansas Jobs for Veterans State Grant
                                          19                      Report No. 04-11-002-02-201
                                Prepared by WithumSmith+Brown, PC
        for the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                    Kansas Jobs for Veterans State Grant
                   20                      Report No. 04-11-002-02-201
                                                     Prepared by WithumSmith+Brown, PC
                             for the U. S. Department of Labor – Office of Inspector General

                                                                              Appendix C
Acronyms and Abbreviations
Appendix C Acronyms and Abbreviations
CFO            Chief Financial Officer
DOC            Department of Commerce
DOL            Department of Labor
DOL VETS       Department of Labor Veterans’ Employment and Training Service
DVA            Department of Veterans' Affairs
DVOP           Disabled Veterans’ Outreach Program
EDR            Expenditure Detail Report
ETP            Employment and Training Programs Division
FIFO           First-In First-Out
FFR            Federal Financial Report
FY             Fiscal Year
GAGAS          Generally Accepted Government Auditing Standards
GL             General Ledger
JVSG           Jobs for Veterans State Grant
LVER           Local Veterans Employment Representative
NOA            Notification of Obligation Authority
OIG            Office of Inspector General
OMB            Office of Management and Budget
SGA            Solicitation for Grant Application
SHARP          Statewide Human Resource and Payroll Project
STARS          State Accounting and Reporting System
TAP            Transitioning Assistance Program Workshops
USC            United States Code
VPL            Veterans’ Program Letter
WS+B           WithumSmith+Brown




                                                         Kansas Jobs for Veterans State Grant
                                        21                      Report No. 04-11-002-02-201
                                Prepared by WithumSmith+Brown, PC
        for the U. S. Department of Labor – Office of Inspector General









    PAGE INTENTIONALLY LEFT BLANK 





                                    Kansas Jobs for Veterans State Grant
                   22                      Report No. 04-11-002-02-201
                                                              Prepared by WithumSmith+Brown, PC
                                      for the U. S. Department of Labor – Office of Inspector General

                                                                                                          Appendix D
VETS and Kansas DOC’s Responses to Draft Report
Appendix D VETS and Kansas DOC’s Responses to Draft Report
VETS Response:


     U.S. Department of Labor                 Assistant Secretary for
                                              Veterans' Emptoyment and Training
                                              Washington. D.C. 20210


          MARa I 2011

            Elliot P. Lewis
            Assistant Inspector General for Aud it Office o f Inspec tor General
            U.S . Department of Labor
            200 Constitution Avenue, N.W.
            Washington, D.C. 202 10


            Dear Mr. Lewis;

            This is our initial respo nse to recommendations regarding th e independent audit of the
            conduct and reponing of the Fiscal Year (FY) 2008 Jobs for Vcterans' State Grant
            (JVSG) by the Kansas Department ofCommeree. Thi s aud it was cond ucted through the
            Office of Audit of the Department of Labor's Office oflnspector General as requested by
            the Veterans' Employment and Training Service (VETS) and perfonned through contract
            with WithumSmith+Brown of Silver Spring, Maryland. This audi t was requested since
            VETS noted frequent lateness in reponing and found errors in FY 2008 financial reports
            th at were received from the Kansas Department of Commerce, Office of Workforce
            Services.

            This office concurs that the subj ect JVSG grantee, the Kansas Department of Commerce,
            exercised a lack of effective management controls and appropriate supervisory oversight
            resulting in its ability to ensure expenditures were reported in accordance with req ui red
            time frames and reported properly with support ing documentation.

            We further acknowledge audit find ings that indirect costs were improperly calculated and
            reported; reported expenditures exceeded VETS obligation authority; that $ 152,096 in
            "Other" expenditures could not be substantiated; and, that the FY 2008 JVSG grant was
            overcharged by $ 14,969 resulting in $ 167,065 of questionable costs.

            As the Assistant Secretary for Veterans' Employment and Training, I intend to provide
            the aud it findings to the Gran t Officer for the JVSG to take the necessary act ions to
            consider rccovering the questioned unsupported "other" costs o r $ 152,096 and indirect
            costs of$1 4,969, and require the Kansas Department of Commerce to take and report
            their re medial efforts to develop sufficient internal control policies and procedures to
            im prove program management and to ensure that JVSG funds are properl y recorded and
            reported accurately and in a timely manner. VETS believes that sufficient internal
            contro ls can be reasonably implemented within sixty days from notification and will
            request another audit of the program be cond ucted in the future as coordinated with the
            Office of the Inspector General.




                                                                             Kansas Jobs for Veterans State Grant
                                                      23                            Report No. 04-11-002-02-201
                                                  Prepared by WithumSmith+Brown, PC
                          for the U. S. Department of Labor – Office of Inspector General




I appreciate the elTorts of all those who participated in the discussion, investigation and
preparation of these audit findings and reconunendations.




                                                                 Kansas Jobs for Veterans State Grant
                                          24                            Report No. 04-11-002-02-201
                                                               Prepared by WithumSmith+Brown, PC
                                       for the U. S. Department of Labor – Office of Inspector General

Kansas DOC Response:




                                                                                                 Phone (785) 296-3481
                                                                                          Fax (785) 296-5055 TTY 711
     1O00 SW Jackson St , Suite 100                                                       admin@<ansascommerce.com
     Topeka, KS 66612-1354                                                                       KansasCommerce.com

     Pat George, Secretary                      Department of Commerce                         SamBrownback, GWe!1lOC



      March 31, 2011



      Michael Yarborough
      CPA, Audit Director

      RE:    Draft Report #04-11-002-02-201 - Kansas Controls Over Jobs for Veteran State Grant Contract
      Reporting and Monitoring

      Dear Mr. Yarborough:

     This letter will serve as an ''informal response" to your proposed statement of facts and audit
     recommendations pertaining to certain fiscal practices of the Kansas Department of Commerce
     (Commerce). With respect to the Jobs for Veterans State Grants Program (JVSG), Commerce is
     appreciative of the auditor's efforts and believes the review will lead to better practices. However,
     Commerce has not had adequate time to fully respond for the reasons set forth below. We are actively
     seeking additional support to better respond to the findings. If provided additional time, it appears many
      of the questioned costs could be supported.

     On March 4, 2011, the auditors provided Commerce with a proposed statement of facts concerning the
     audit. In the email that accompanied the letter, it was acknowledged that "Commerce was still working
     on providing supporting documentation for some of the issues noted. That documentation can be
     provided as part of your informal response and will be considered when drafting the audit report."

     Due to a lack of adequate time, the agency is still in the process of preparing the documentation the
     auditors acknowledged is necessary to determine the appropriate [mdings in this review. Commerce
     believes it will be able to adequately accOlmt for most, if not all, of the $152,096.00 that is referenced as
     ''lmsupported'' and the $14,969.00 of ''indirect costs." We have informed 01 G of our desire to provide
     the documentation within the next few weeks but were unable to get additional time. Contributing to
     our need for more time to locate supporting documents for these costs are the facts that, since the fiscal
     year in question, we have a relatively new Chief Fiscal Officer, new fiscal staff with responsibility for
     this program, a new financial reporting system, and different leadership over our veterans' programs.
     All of these factors have made more difficult the process oflocating the supporting documentation for
     many of the questioned transactions.

     The second recommendation is that Commerce be directed ''to develop and implement internal control
     policies and procedures to improve program management and to ensure that JVSG funds are properly
     recorded and reported."




                                                                              Kansas Jobs for Veterans State Grant
                                                      25                             Report No. 04-11-002-02-201
                                                         Prepared by WithumSmith+Brown, PC
                                 for the U. S. Department of Labor – Office of Inspector General




As noted above, Conunerce has already implemented a new financial reporting system and is in
agreement their policies and procedures needed to be improved. Given that over two years have elapsed
since FY 2008, many of those improvements have already been implemented. We have acknowledged
that certain practices may have been inadequate and lead to confusion surrOlmding the "questionable"
expenses. Could the reconunendation inform the JVSG that significant reforms have been implemented
to correct those past practices? These reforms include doclllTIenting and implementing procedures to
assure accurate and complete reporting to DOL VETS. Expenditures are now tracked regularly using a
standardized process and template. In addition, procedures are being doclllTIented and followed for the
indirect charges to the VETS grant as well as doclllTIenting the methodology used in the allocation of
"Other" charges. Lastly, Commerce has developed a process to ensure that clllTIulative grant obligations
do not exceed the VETS NOA. These processes are monitored frequently to ensure timeliness and
accuracy.

In order for the audit [mdings to be comprehensive and have the appropriate context, a complete
statement of facts supported by proper doclllTIentation should be included. All parties involved appear to
agree the report is incomplete in that it does not have doclllTIentation that we are actively working to
provide as soon as practicable. Commerce has already implemented substantive and systemic reforms
designed to improve our fiscal reporting processes. We sincerely hope the u.S. Department of Labor
will give full consideration to our acknowledgment of certain opporhmities to improve and our
continuing efforts to improve our internal controls and fiscal practices.

Thank you for your consideration of our request to supplement this response prior to the issuance of any
findings by the USDOL.

Sincerely,




Traci Hemck
Chief Fiscal Officer

cc: Maureen Wagner




                                                                       Kansas Jobs for Veterans State Grant
                                                26                            Report No. 04-11-002-02-201
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

          Online:      http://www.oig.dol.gov/hotlineform.htm
          Email:       hotline@oig.dol.gov

          Telephone:   1-800-347-3756
                       202-693-6999

          Fax:         202-693-7020

          Address:     Office of Inspector General
                       U.S. Department of Labor
                       200 Constitution Avenue, N.W.
                       Room S-5506
                       Washington, D.C. 20210






